HHS/OIG, Audit -"Review of Medicare Part A Costs Claimed For Y2K Activities For The Period October 1, 1997 Through September 30, 1999 - United Government Services, LLC, Milwaukee, Wisconsin,"(A-05-02-00054)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Part A Costs Claimed For Y2K Activities For The
Period October 1, 1997 Through September 30, 1999 - United Government Services,
LLC, Milwaukee, Wisconsin," (A-05-02-00054)
April 25, 2003
Complete
Text of Report is available in PDF format (455 kb). Copies can also be
obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The audit objective was to determine whether costs claimed by UGS for Medicare
Y2K remediation were allowable and properly allocated.  Our review showed
UGS improperly charged Y2K for $45,278 of compensation for supervisors working
less than 100 percent on Y2K; could not support other compensation costs of
$3,724; and claimed unallowable employee meal costs of $921.  We recommended
UGS amend its FACP to charge supervisor compensation of $45,278 to non-Y2K
Medicare activities and make a financial adjustment for the remaining $4,645.